FOR IMMEDIATE RELEASE                                                 March 14, 2013
Media Contact: 202-565-3908

         South Florida Business Owner Sentenced For Scheme to Defraud
                      Export-Import Bank of the United States


WASHINGTON, DC –The Export-Import Bank of the United States (Ex-Im Bank)
Office of Inspector General (OIG) today announced that a Miami armored glass
supplier was sentenced to serve 14 months in prison for his role in a scheme to
defraud Ex-Im Bank of approximately $888,400. Mythili Raman, Acting Assistant
Attorney General of the Department of Justice Criminal Division and Osvaldo L.
Gratacos, Inspector General of Ex-Im Bank made the announcement.
Hector R. Mestril, 46, was sentenced by Judge Jose E. Martinez in U.S. District Court
in Miami, FL. Mestril, a naturalized U.S. citizen from Cuba, pleaded guilty on January
3, 2013, to one count of conspiracy to commit wire fraud and one count of wire
fraud. In addition to the prison term, Mestril was sentenced to 36 months of
supervised release, was ordered to pay $345,727.64 in restitution (jointly with a co-
defendant), forfeit $888,393.26, and pay $200 in special assessments.
According to court documents, Mestril was the owner of Interglass & Armoring
Corporation, an exporter located in Miami that purported to be in the business of
exporting armored glass products to buyers in foreign countries. Mestril admitted
that he and co-conspirators created false invoices, shipping documents, financial
statements, and other documents that were submitted to a Miami finance company.
The false documents were ultimately submitted to Ex-Im Bank to insure the
financial transaction. Mestril admitted that none of the buyers existed and none of
the equipment was exported. Mestril received a total of $888,393.26 in Ex-Im
insured loan proceeds and ultimately defaulted on his loan, causing a loss to Ex-Im
Bank and the U.S. government of $575,380.53.
Mestril’s sentencing is part of an ongoing OIG investigation into a network of export
credit insurance fraud schemes involving exports into South America which, to date,
has resulted in criminal charges against six defendants, four convictions, and more
than $13.5 million in court ordered criminal fines and restitution. One fugitive fled
to Argentina; he was captured in December 2011 and is awaiting extradition back
into the United States.
Senior Litigation Counsel Patrick Donley and Trial Attorney William Bowne of the
Department of Justice Criminal Division Fraud Section are prosecuting the case.
Special agents with Ex-Im Bank Office of Inspector General (OIG) investigated the
case.



                  811 Vermont Avenue, NW Washington, D.C. 20571
Ex-Im Bank is an independent federal agency that helps create and maintain U.S.
jobs by filling gaps in private export financing. Ex-Im Bank provides a variety of
financing mechanisms to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations. Additional information
about the OIG can be found at www.exim.gov/oig. Complaints and reports of waste,
fraud, and abuse related to Ex-Im Bank programs and operations can be reported to the
OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.

                                        ###




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
